          OFFICE OF INSPECTOR GENERAL 




                                     Catalyst for Improving the Environment


Special Report




       EPA Grants to the
       National Rural Water Association
       Report No. 2006-S-00005   


       September 12, 2006 

Report Contributors: 	                  Janet Kasper
                                        Robert Adachi
                                        Eileen Collins




Abbreviations

EPA                 U. S. Environmental Protection Agency
NRWA                National Rural Water Association
OIG                 Office of Inspector General
                       U.S. Environmental Protection Agency                                             2006-S-00005

                                                                                                   September 12, 2006

                       Office of Inspector General


                       At a Glance

                                                                            Catalyst for Improving the Environment


Why We Did This Review              EPA Grants to the National Rural Water
In response to a congressional
                                    Association
request, the Office of Inspector
General examined the                 What We Found
execution of Environmental
Protection Agency (EPA)             Under its grants, NRWA is not required to measure the environmental outcomes
grants awarded to the National      of the technical assistance activities it provides. As a result, the environmental
Rural Water Association             benefits could not be determined. EPA grants awarded to NRWA, after
(NRWA).                             January 1, 2005, include outputs but do not link the outputs to environmental
                                    outcomes and measures.
Background
                                    The work plans for the various subgrants result in a “one-size-fits-all” approach
The NRWA is a nonprofit             where NRWA treats each State association identically, regardless of its
organization that provides          geographic size, number of water systems, or operators. NRWA’s consideration
technical assistance, training,     of the needs of various State associations would allow the funds to be used more
and legislative representation to   effectively.
water providers serving rural
communities. NRWA is a
federation consisting of             What We Recommend
48 State associations
representing 49 States. Since       We recommend that the Assistant Administrator for Water:
October 2000, NRWA has
received over $70 million from           1.	     Develop a mechanism to link future NRWA grant awards to
EPA to provide training and                      environmental outcomes and measures.
technical assistance to rural
water systems.                           2.	     Review and negotiate work plans to ensure that State needs are met
                                                 and will maximize environmental results achieved with EPA grant
                                                 funds.

                                    The Agency concurred with the recommendations of our report and will
                                    undertake efforts to implement the recommendations in the fall of 2006.
For further information,
contact our Office of
Congressional and Public
Liaison at (202) 566-2391.

To view the full report,
click on the following link:
www.epa.gov/oig/reports/2006/
20060912-2006-S-00005.pdf
                         UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, D.C. 20460


                                                                                          OFFICE OF 

                                                                                     INSPECTOR GENERAL





                                        September 12, 2006


MEMORANDUM

SUBJECT:       EPA Grants to the National Rural Water Association
               Report No. 2006-S-00005

TO:            Benjamin H. Grumbles
               Assistant Administrator, Office of Water


On August 24, 2005, Senator James Jeffords asked the Environmental Protection Agency (EPA)
Office of Inspector General (OIG) to examine the execution of EPA grants awarded to the
National Rural Water Association (NRWA). We issued an initial report to Senator Jeffords on
May 30, 2006. During the course of our assignment, we identified grant award and
administration issues that caused or contributed to the findings discussed in the May 30, 2006,
report. This letter is to advise you of the issues along with our recommendations for actions that
EPA can take to improve administering grants awarded to NRWA.

This report contains findings that describe problems the OIG has identified and corrective
actions the OIG recommends. This report represents the opinion of the OIG and the findings do
not necessarily represent the final EPA position. EPA managers will make the final
determinations on matters in this report in accordance with established audit resolution
procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $203,736. This includes the cost
of the report to Senator Jeffords issued on May 30, 2006.

Action Required

The response to the draft report concurred with the recommendations with actions to implement
the recommendations in the fall of 2006. As a result, no response to this report is necessary. We
ask that you provide us with the status of your corrective actions when they are completed.
Please email an electronic version of your status of corrective actions to kasper.janet@epa.gov.
If you or your staff has any questions about this report, please contact Janet Kasper, Acting
Director, Assistance Agreement Audits, at (312) 886-3059.


                                                     Sincerely,



                                                     Bill A. Roderick
                                                     Acting Inspector General
                                 EPA Grants to the National Rural Water Association



                                       Table of Contents 


Results of Audit ...................................................................................................................   1 


             Grants Linked to Outputs But Not Environmental Outcomes .................................                                 1

             Better Work Plans Are Needed ..............................................................................               1


Recommendations ..............................................................................................................         2


Agency Response and OIG Comment ..............................................................................                         2


Status of Recommendations and Potential Monetary Benefits…………………..............                                                         3     




Appendices
             A       Agency Response .......................................................................................           4


             B       Distribution ……………………………………………………………….. ..........                                                                5




Attachment
             1       Congressional Request Regarding EPA Grants
                     to the National Rural Water Association
Results of Audit
Grants Linked to Outputs But Not Environmental Outcomes. The grants awarded to NRWA
include outputs, but do not link the outputs to environmental outcomes and measures, as detailed
in the attached report. It is EPA policy, under EPA Order 5700.7, to ensure, to the maximum
extent practicable, that outputs and outcomes are appropriately addressed in assistance
agreements, grant competitive funding announcements, work plans, and performance reports.
For the grants issued or amended since January 1, 2005, the work plans contained outputs, but
NRWA did not state how the outputs would result in obtaining environmental outcomes.

EPA has developed a model to show how technical assistance activities, such as those NRWA
performs, will contribute to the long-term outcome of protecting human health. EPA Office of
Water officials stated that outcome measures would be addressed in the new strategic plan
scheduled for final issuance in the fall of 2006. The Office of Water will develop methods to
measure outputs and outcomes at a nationwide, programmatic level, but not for individual
grantees. The Office of Water will need to develop a mechanism to link future grant awards to
environmental outcomes and measures.

Better Work Plans Are Needed. Currently, the work plan for the various sub-grants results in a
“one-size-fits-all” approach where each State is treated identically, regardless of its geographic
size, number of water systems, or operators. As detailed in the attached report, each State
receives the same amount of funds and the same work plan. Improved negotiation of work plans
should allow the grant funds to be used more efficiently by considering the needs of the various
States.

EPA’s policy is that earmarks are to be managed like any other grant. EPA Grants Policy
Issuance 03-01 states:

       Earmarks in committee reports do not, in and of themselves, provide the Agency with
       statutory authority to award the assistance agreement. Awards made as a result of
       earmarks are subject to the applicable assistance regulations, OMB cost principles and
       Agency policies. They must be managed as any other assistance agreement.

The Project Officer Training Manual stresses the importance of negotiating a work plan and
states:

       The approved project narrative/work-plan is the basis for making an award and is used
       by the PO [project officer] to manage and evaluate performance under the agreement.
       The purpose of the project narrative is to outline all activities to be performed by the
       recipient. It is especially critical for the PO to spend time negotiating with the recipient
       on this portion of the application package.

NRWA’s work plans could be improved in several ways.

•	     Distribute funds based on methods used on various other Office of Water grant programs.
       One of the methods consists of a base and scale amount, with each State receiving a base


                                                 1

       amount (usually 1 percent of the grant amount). The remaining funds are distributed
       using a variety of factors, including needs surveys, number of water systems, and number
       of operators.

•	     Consider the needs of the individual States when developing the activity requirements for
       State associations. NRWA specifies the terms of the subawards without negotiation or
       input from the State associations on the activities to be conducted under each EPA
       program; if a State association wants to receive Federal funding, it must accept NRWA’s
       terms.

•	     Allow the State associations to use individuals on multiple programs. NRWA limits who
       within the State rural association can work on the EPA program. The manual for both the
       wellhead and the source water protection programs states: “…staff paid with Federal
       funds cannot perform work under other grants.”


Recommendations
We recommend that Assistant Administrator for Water:

       1. 	   Develop a mechanism to link future NRWA grant awards to environmental
              outcomes and measures.

       2. 	   Review and negotiate work plans to ensure that State needs are met and will
              maximize environmental results achieved with EPA grant funds.


Agency Response and OIG Comment
The Agency concurred with the recommendations of our report and will undertake efforts to
implement the recommendations in the fall of 2006. The Agency’s complete response is
included in Appendix A.




                                               2

                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                           POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                          BENEFITS (in $000s)

                                                                                                               Planned
    Rec.    Page                                                                                              Completion   Claimed    Agreed To
    No.      No.                         Subject                       Status1         Action Official           Date      Amount      Amount

     1        2     Develop a mechanism to link future NRWA grant         O        Assistant Administrator,   11/30/2006
                    awards to environmental outcomes and measures.                     Office of Water

     2        2     Review and negotiate work plans to ensure that        O        Assistant Administrator,   11/30/2006
                    State needs are met and will maximize                              Office of Water
                    environmental results achieved with EPA grant
                    funds.




1    O = recommendation is open with agreed-to corrective actions pending;

     C = recommendation is closed with all agreed-to actions completed;

     U = recommendation is undecided with resolution efforts in progress 





                                                                              3

                                                                                  Appendix A


                                Agency Response


                                        August 23, 2006

MEMORANDUM

SUBJECT:      EPA Grants to the National Rural Water Association, Assignment No. 2005
              1648, Draft Report

FROM:         Benjamin H. Grumbles
              Assistant Administrator

TO:           Michael A. Rickey
              Director, Assistance Agreement Audits

       Thank you for the opportunity to comment on your Office=s draft report, EPA Grants to
the National Rural Water Association. We agree that it is important that congressionally
earmarked grants provided to the National Rural Water Association (NRWA) meet Agency
requirements related to environmental outcomes and that the work plans developed to support
the grants could be improved.

         We acknowledge the recommendations that were presented in the draft report but note
that given the diverse nature and widespread scope of NRWA’s technical assistance activities, as
well as its longstanding procedures for awarding funds to its state affiliates, the
recommendations will be challenging to implement. Nevertheless, we will be undertaking
efforts to address both recommendations this fall as we negotiate new grant agreements with
NRWA.

       Thank you for the opportunity to comment on this draft report. If you have further
questions, please contact Cynthia Dougherty, Director of the Office of Ground Water and
Drinking Water at 202-564-3750.




                                               4

                                                                                Appendix B


                                   Distribution

Office of the Administrator
Assistant Administrator for Water
Assistant Administrator for Administration and Resources Management
Agency Followup Official (the CFO)
Agency Followup Coordinator
Audit Followup Coordinator, Office of Water
Audit Followup Coordinator, Office of Administration and Resources Management
Director, Grants Administration Division
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Acting Inspector General




                                            5

                                                         Attachment 1



          OFFICE OF INSPECTOR GENERAL 




                                   Catalyst for Improving the Environment


Special Report




       Congressional Request
       Regarding EPA Grants to the
       National Rural Water Association
       Report No. 2006-S-00003

       May 30, 2006
Report Contributors: 	   Janet Kasper
                         Robert Adachi
                         Kevin Lawrence
                         Eileen Collins
                       U.S. Environmental Protection Agency                                             2006-S-00003

                                                                                                         May 30, 2006

                       Office of Inspector General


                       At a Glance

                                                                           Catalyst for Improving the Environment


Why We Did This Review            Congressional Request Regarding EPA Grants
                                  to the National Rural Water Association
In response to a congressional
request, the Office of
                                   What We Found
Inspector General examined
the execution of
                                  We found the following regarding the four questions we sought to answer:
Environmental Protection
Agency (EPA) grants awarded
                                  What environmental benefits result from the EPA grants to NRWA?
to the National Rural Water
Association (NRWA). To
                                      Under its grants, NRWA is not required to measure the environmental
address the request, we sought
                                      outcomes of the technical assistance activities it provides. As a result, the
to answer four specific
                                      environmental benefits could not be determined. EPA grants awarded to
questions.
                                      NRWA, after January 1, 2005, include outputs but do not link the outputs to
                                      environmental outcomes and measures.
Background
                                  What improvements can be made in NRWA’s administration of the
The NRWA is a non-profit          program?
organization that provides
technical assistance, training,       NRWA’s administration of the grants can be improved to more effectively
and legislative representation        meet the needs of rural water systems. The number of organizations eligible
to water providers serving            to perform work for NRWA can be expanded to include non-member
rural communities. NRWA is            organizations. Rather than distributing funds equally to all States, NRWA
a federation consisting of            could take into consideration the individual needs of rural water systems in
48 State associations                 each State in determining funding and the required activities and outputs.
representing 49 States. Since
October 2000, NRWA has            Are there other options for awarding some rural water assistance funds?
received over $70 million
from EPA to provide training          Rather than earmarking funds for NRWA, Congress has other options for
and technical assistance to           ensuring rural water systems receive needed assistance. Congress could
rural water systems.                  require EPA to award the grants through a competitive process. Congress
                                      could incorporate into the appropriation language requiring NRWA to award
                                      funds to technical assistance providers based on State needs. Another option
                                      would be to consolidate grants awarded to NRWA.

For further information,          How does NRWA develop white papers and policy positions?
contact our Office of
Congressional and Public              NRWA prepares white papers to address the challenges facing rural water
Liaison at (202) 566-2391.            systems. NRWA and its contractor determine the topics for the white papers.
To view the full report,
                                      The State associations’ participation is limited to the development of white
click on the following link:          paper and policy positions through their representatives on NRWA’s board of
www.epa.gov/oig/reports/2006/         directors. According to NRWA officials, non-Federal revenue (e.g.,
20060530-2006-S-00003.pdf             investments, member services, and other revenues) is used to finance the
                                      white papers.
                                       Table of Contents 

At a Glance

Introduction ............................................................................................................                 1


       Purpose .......................................................................................................................    1 

       Background ...................................................................................................................     1

       Scope and Methodology ...............................................................................................              2


Results ...................................................................................................................               3


       What environmental benefits result from the EPA grants to NRWA? ...........................                                        3

       What improvements can be made in NRWA's administration of the program? ............                                                6

       Are there other options for awarding some rural water assistance funds? ...................                                        8

       How does NRWA develop white papers and policy positions? ....................................                                      9




Appendices
A      Additional Details on NRWA ..........................................................................                             10


B      Details on Scope and Methodology...............................................................                                   12 

                                             Introduction

Purpose
In response to a congressional request, the Office of Inspector General (OIG) examined the
execution of grants the Environmental Protection Agency (EPA) awarded to the National Rural
Water Association (NRWA). To address the request, we answered the following questions:

    •    What environmental benefits result from the EPA grants to NRWA?

    •    What improvements can be made in NRWA's administration of the program?

    •    Are there other options for awarding some rural water assistance funds?

    •    How does NRWA develop white papers and policy positions?


Background
Approximately 272 million people receive their drinking water from nearly 53,000 community
water systems. These systems range from very small, serving populations of 500 or less, to very
large, serving over 100,000. A prior EPA OIG report noted that although these systems share
“…problems of aging infrastructure, underfunding, and meeting regulations, small systems have
had great difficulty keeping up with the Safe Drinking Water Act regulations.”1

NRWA is a non-profit organization that provides technical assistance, training, and legislative
representation to water providers serving rural communities. NRWA defines rural communities
as water systems serving populations less than 10,000 people.2 NRWA receives the majority of
its funding from EPA and the United States Department of Agriculture (USDA). During the
fiscal year ending February 28, 2005, $37 million of NRWA’s total revenues of $43 million
came from EPA ($13.5 million) and USDA ($23.5 million).

EPA awarded grants to NRWA based on Congressional earmarks. The Office of Management
and Budget defines earmarks as funds for projects, activities, or institutions not requested by the
executive branch, or add-ons to requested funds which Congress directs for specific activities.
Congress specifically identified NRWA as the recipient for earmarks relating to the water
security, technical assistance, and groundwater protection grants. The earmark for the source
water protection grant did not specify NRWA as the recipient. NRWA, using EPA grant
funding, issues subawards to State rural water associations to carry out the activities approved in

1
  EPA OIG Report No. 2003-P-00018, Impact of EPA and State Drinking Water Capacity Development Efforts
Uncertain, issued September 30, 2003.
2
  EPA defines a water system serving a population of 3,300 to 10,000 as a medium system; 501 to 3,300 as a small
system; and less than 500 as a very small system. For purposes of this report, rural systems refer to medium, small,
and very small systems.


                                                         1

the grant work plans. During the period of October 1, 2000, through March 7, 2006, NRWA was
awarded $70 million in EPA earmarked grants. Currently, NRWA has three active EPA grants,
with awards totaling $20 million. NRWA also receives funds from USDA for technical
assistance and rural water circuit rider technical assistance.

See Appendix A for further details on NRWA and the grants it receives.


Scope and Methodology
This assignment was not an audit in accordance with generally accepted government auditing
standards. We did not complete this assignment with the intent of providing an independent
assessment of the performance of a government organization or activity, as required by
Government Auditing Standards, issued by the Comptroller General of the United States. We
performed our field work between December 29, 2005, and March 7, 2006. We limited our
assignment to EPA grants and amendments awarded after January 1, 2005. The report
incorporates comments received from EPA Office of Water officials. See Appendix B for details
on scope and methodology.




                                              2

                                                 Results

What environmental benefits result from the EPA grants to NRWA?
Under its EPA grants, NRWA is not required to measure the environmental outcome of the
technical assistance activities it provides. As a result, the environmental benefits could not be
determined. EPA has developed a model of how technical assistance activities, such as those
that NRWA performs, contribute to the long-term outcome of protecting human health.
Although we believe State associations provide valuable services, without outcome measures,
EPA is unable to measure the specific benefits of the more than $7.6 million in grants awarded to
NRWA since January 1, 2005.

As a result, We were unable to determine the environmental benefits of the grants to NRWA

It is EPA policy to ensure, to the maximum extent practicable, that outputs and outcomes are
appropriately addressed in grant competitive funding announcements, work plans, and
performance reports.3 The policy provides the following definitions for outcomes and outputs:

           The term “outcome” means the result, effect or consequence that will occur
           from carrying out an environmental program or activity that is related to an
           environmental or programmatic goal or objective. Outcomes may be
           environmental, behavioral, health-related or programmatic in nature, must be
           quantitative, and may not necessarily be achievable within an assistance
           agreement funding period.

           The term “output” means an environmental activity, effort, and/or associated
           work products related to an environmental goal or objective, that will be
           produced or provided over a period of time or by a specified date.... Outputs
           reflect the products and services provided by the recipient, but do not, by
           themselves, measure the programmatic or environmental results of an assistance
           agreement.

For the grants issued or amended since January 1, 2005, the work plans contained outputs, but
NRWA did not state how the outputs would result in obtaining environmental outcomes. The
proposed environmental outcomes and outputs for the grants are presented in Table 1. In the
case of the wellhead and source water protection grants, the stated outcomes are similar, and are
not quantitative.




3
    EPA Order 5700.7, Environmental Results under EPA Assistance Agreements, effective January 1, 2005.


                                                         3

               Table 1: Environmental Outcomes and Outputs In Grant Proposals

  Grant No.                Environmental Outcome                                    Outputs
X683236101       During the course of this program the State      Local contamination prevention
Wellhead         associations will assist local communities in    activities will be implemented in 1,833
Protection       the development of wellhead protection           systems enhancing the level of public
                 plans that will include, but will not be not     health through contamination
                 limited to, identification of possible sources   prevention, greater public awareness,
                 of contaminants, improving water quality,        and environmental protection
                 and safeguarding water infrastructure.           ownership at the local community level.

X82384401        During the course of this program the            Source Water Specialists will provide a
Source Water     NRWA will assist local communities in the        minimum of 3,900 hours of on-site
Protection       development and implementation of source         assistance nation-wide during 2006 in
                 water protection plans that will include, at     the facilitation of planning teams and
                 minimum, delineated protection areas,            development and implementation of
                 identification of possible sources of            plans, including followup assistance on
                 contaminants, initial implementation of          plans completed during previous years.
                 management measures in each plan, and
                 contingency planning to safeguard water
                 infrastructure. As time and resources
                 permit, the plans will supplement the State
                 source water assessments and provide
                 information that was unavailable to the State
                 and provide followup implementation upon
                 request.



EPA Office of Water developed a logic model to link inputs to long-term environmental
outcomes for the Public Water System Supervision (PWSS) Program. According to Office of
Water, NRWA is a partner organization within the PWSS Program. The logic model is a way of
graphically displaying a program’s resources, activities, outputs, and outcomes. The logic model
spells out in reasonable detail all the things a program does and what can be accomplished, and
tells the story in a linear, graphic way. Figure 1 is a portion of the logic model that shows how
NRWA’s activities contribute to the goal of protecting human health through safe drinking
water.




                                                    4

                               Figure 1: Logic Model for NRWA Activities




In a prior report, we noted that EPA’s current drinking water program performance measures
focus on program activities rather than long-term outcomes. 4 In response to the report, the
Office of Water issued final guidance on source water protection measures, and is developing
measures for capacity development activities. The capacity development measures are expected
to be completed in December 2006. In addition, Office of Water officials stated that outcome
measures would be addressed in the new strategic plan scheduled for final issuance in the fall of
2006. The Office of Water will develop methods to measure outputs and outcomes at a
nationwide, programmatic level and not for individual grantees. However, to comply with EPA

4
  EPA OIG Report No. 2005-P-00021, Progress Report on Drinking Water Protection Efforts, issued August 22,
2005.



                                                     5

policy, the Office of Water will need to describe the linkage between the intended outputs under
the grants to environmental outcomes and measures.

Even though EPA has not developed measures, States are making progress in measuring the
impact of capacity development activities. For example, the Pennsylvania Department of
Environmental Protection is using both quantitative and qualitative methods to track changes in
water system capacity over time.

While the impact of the NRWA grants have not been measured, we believe that State rural water
associations play an important role in helping rural water systems comply with drinking water
standards, and thus there are positive outcomes. An OIG evaluation of challenges facing small
drinking water systems found that third party organizations, such as State rural water
associations, play a key role in assisting these systems.5 Discussions with State primacy
agencies also highlighted the benefits of the rural water associations. For example:

    •	 The Florida Department of Environmental Protection considers the Florida Rural Water
       Association a part of its training program, and indicated that the association has
       contributed to an increase in compliance rates.
    •	 The Indiana Department of Environmental Management believes that the Alliance of
       Indiana Rural Water is a key to the success of communities developing protection plans.
    •	 The Georgia Department of Natural Resources uses the Georgia Rural Water Association
       as a tool to help bring non-complying systems back into compliance.


What improvements can be made in NRWA's administration of the
program?
NRWA’s administration of the grants can be improved to more effectively meet the needs of
rural water systems. The number of organizations eligible to perform work for NRWA can be
expanded to include non-member organizations. Rather than distributing funds equally to all
States, NRWA could take into consideration the individual needs of rural water systems in each
State in determining funding and the required activities and outputs.

Expand Number of Eligible Subrecipients. NRWA could expand the number of organizations
that are eligible to be subrecipients under the grants. Currently, NRWA only provides Federal
funding to rural water associations that are dues paying members of NRWA. The membership
fee structure consists of two parts – a base fee of $2,300, and an additional $300 fee per each
Federal grant. A State association conducting activities under all three grants would have $900
added to the base membership fee. However, other organizations provide training and technical
assistance to small and rural water associations that are not members of NRWA. For example,
two rural water associations in Indiana – one a member of NRWA and the other not – both
provide training to rural water systems. State primacy agencies have used other non-profit


5
 EPA OIG Report No. 2005-P-00021, Progress Report on Drinking Water Protection Efforts, issued August 22,
2005.


                                                     6

organizations, along with State rural water associations, to provide technical assistance to rural
water systems.

Change Funding Method. Even though the number and needs of rural water systems in each
State vary, NRWA distributes funds equally to all States. The State association distribution
process begins with NRWA determining its expenses to manage the grant program for the year.
The remaining available grant funds are divided equally among the State associations conducting
activities under the grant, with the exception of Alaska (which receives extra funds due to the
additional costs of operating in Alaska). For example, all 48 State associations participate in the
technical assistance and training grant program, and each association in the continental United
States receives $96,332. NRWA officials said the equal distribution of funds is due to their
inability to determine a distribution method that its board of directors will approve. Nonetheless,
NRWA’s equal distribution method does not consider the differences among its 48 State
associations. We believe NRWA can distribute funds to State associations based on need, such
as by the number of rural water systems. Officials for seven associations reviewed noted
significant variations in the number of water systems for which they provide training and
technical assistance, yet they received the same amount of funding (see Figure 2).

                                    Figure 2: Number of Community Water Systems per State
       Number of Community Water




                                   3500
                                   3000
                                   2500
                Systems




                                   2000
                                   1500
                                   1000
                                   500
                                     0
                                                                                                        t
                                                      e




                                                                                             d
                                                                        ia
                                          ia




                                                               a




                                                                                    a




                                                                                                     on
                                                    ar




                                                                                           an
                                                            rid




                                                                                  an
                                                                      rg
                                          rn


                                                  aw




                                                                                                    rm
                                                                                           yl
                                                                    eo
                                       ifo




                                                             o




                                                                                di
                                                          Fl




                                                                                         ar
                                                                              In




                                                                                                 Ve
                                                el
                                     al




                                                                   G




                                                                                        M
                                               D
                                    C




                                                                        State


The equal distribution of funds limits the effectiveness of the State associations in meeting the
needs of the local water systems, particularly the States with a large number of associations. For
example, California Rural Water Association officials, with 3,123 systems, said that they could
double the amount of training and still have room for growth, while the Delaware Rural Water
Association, with only 226 systems, is able to annually visit a majority of its systems.

Allow Workplan Flexibility. NRWA could consider the needs of individual States when
developing the activity requirements for State associations. NRWA specifies the terms of the
subawards without negotiation or input from the State associations on the activities to be



                                                                             7

conducted under each EPA program; if a State association wants to receive Federal funding, it
must accept NRWA’s terms. All of the participating State associations have the same terms and
activity requirements. The NRWA Performance Procedures Manual details the activities to be
conducted and how to conduct them; there are three manuals, one for each EPA-funded program.
For example, the manual for the technical assistance and training program states each association
is required to complete an annual assistance plan with 280 hours of training and technical
assistance (a minimum of 80 hours of formal classroom training with the balance being a
combination of classroom training or technical on-site assistance). The manual states the
assistance plan is to be “…developed to address the state’s unique on-site technical assistance
and training needs for rural and small water systems.” However, the uniform terms and activity
requirements do not take the State’s unique needs into consideration.

NRWA also limits who within the State rural association can work on the EPA program. The
manual for both the wellhead and source water protection programs states “…staff paid with
Federal funds cannot perform work under other grants.” Both the wellhead and source water
protection plans include wellhead sources of water and refer to the same EPA wellhead
protection publication as a source for activities to be conducted. Specialists for both programs
appear to need the same skills related to wellhead water issues. Since skills and activities
overlap between the grants, limiting staff to working on only one grant limits the State
associations’ flexibility and effective use of resources.


Are there other options for awarding some rural water assistance
funds?
Other organizations besides NRWA and its State associations could provide assistance to rural
water systems. All of the State primacy agencies contacted have provided technical services
(e.g., training and operator certifications) to rural water systems through various funding
mechanisms. EPA also awards funds to other non-profit organizations to provide technical
assistance. Rather than earmark funds for NRWA, there are other options to provide needed
assistance to rural water systems. EPA could award the grants through a competitive process,
require NRWA to award funds based on need of States, or consolidate grants to NRWA.

Use Competitive Award Process. Rather than using earmarks, Congress could allow EPA to
award funds through a competitive process. Grants to NRWA currently are not competed
because the funds are Congressional earmarks. NRWA is identified as the recipient for all grants
except for the source water grants. Further, although NRWA is not specifically mentioned for
the source water grant, the recipient is described in an appropriation bill as “…an organization
now engaged in ground water and wellhead protection programs,” and based on that description
EPA awarded the source water grant to NRWA without competition. A competitive process
would enable EPA to award grants to other entities, including State primacy agencies, State rural
water associations, or other organizations that have the ability to provide technical assistance to
rural water programs. Awarding grants directly to these organizations would allow more
flexibility and input to meet the needs of the local rural communities.




                                                8

Award Based on Need. Another option would be to award funds based on specific needs of
each individual State. Congress could incorporate into the appropriation language a requirement
that NRWA distribute funds based on methods used on various other Office of Water grant
programs. One of the methods consists of a base and scale amount, with each State receiving a
base amount (usually 1 percent of the grant amount). The remaining funds are distributed using
a variety of factors, including needs surveys, number of water systems, and number of operators.

Consolidate Programs. A final option would be to consolidate the wellhead and source
protection programs, since the activities for the two programs may overlap. The main purpose of
both programs is to provide technical assistance to rural and small communities in the formation
of protection plans. The wellhead program focuses on groundwater sources of water while the
source water program focuses on ground and surface sources. Both the wellhead and source
water procedures manual refer to EPA’s Wellhead Protection: A Guide for Small Communities
as a source of activities that may be conducted. Specialists for both programs appear to need the
same skills related to wellhead water issues.


How does NRWA develop white papers and policy positions?
To address the challenges facing small and rural water systems, NRWA prepares concepts, or
white papers, to examine issues of affordability, balancing benefits and costs, conservation in
regulations, and a variety of other standards and concerns. NRWA, along with its contractor,
determine the topics for the white papers. When necessary, the contractor finds the experts to
conduct the actual research and writing. The State associations’ participation is limited to the
development of the white papers and policy positions through its representatives on NRWA’s
board of directors. It is up to the State association’s representative on NRWA’s board to involve
its respective State associations in the white paper and policy position process. NRWA and State
association officials have said the State associations have no direct role in the topic selection,
research, and writing of white papers. NRWA officials stated non-Federal revenue (e.g.,
investments, asset management program, member services, and other revenues) finances the
white papers.




                                                9

                                                                                          Appendix A

                        Additional Details on NRWA

NRWA began as a group of eight States in 1976 to “…improve the quality of life in rural areas
and in small communities.” NRWA has evolved into a non-profit federation consisting of 48
State associations representing 49 States. The State associations have water and wastewater
system members in excess of 24,550. NRWA also has programs in developing countries.
NRWA is the sponsoring organization for the International Rural Water Association, which
shares the same location and phone number with NRWA in Duncan, Oklahoma.

NRWA has a board of directors that meets twice a year for the purpose of “…determining
direction and positions of the associations.” The board is made up of elected representatives
from each of the member State associations. The State association representatives come from
local rural systems. Idaho is currently the only State association that does not have
representation on the NRWA board of directors.

As of March 7, 2006, NRWA had three active EPA grants, as detailed in Table 2. The purpose
of these grants is for wellhead protection, source water protection, and technical assistance and
training.

                                Table 2: Summary of Active EPA Grants

                                                 Total
                    Project      Total Grant    Amount
    Grant No.       Period         Budget       Awarded                 Purpose of Grant
   X683236101     7/1/2005 to    $15,591,428    $6,115,938   Facilitate the development and
                  6/30/2008                                  implementation of wellhead
                                                             protection plans at the local
                                                             community level.
    X82384401     1/1/2006 to      1,487,570     1,487,570   Facilitate the development and initial
                  12/31/2006                                 implementation of source water
                                                             protection plans at the local
                                                             community level.
    T83169601     5/1/2004 to     16,134,800    12,548,145   Nationwide technical assistance
                  4/30/2007                                  training program to assist rural water
                                                             system personnel increase their
                                                             knowledge and skills in the primary
                                                             areas of drinking water
                                                             implementation, capacity
                                                             development and contamination
                                                             prevention.
   Totals                        $33,213,798   $20,151,653




                                                 10 

The budgets for the current grants show the following breakdown (Table 3) of planned costs
between NRWA internal costs and the amounts given to State rural water associations:

                         Table 3: Budget Breakdowns for NRWA Costs

                                         Grant No.     Grant No.      Grant No.
                  Cost Element          X683236101     X83284401      T83169601
            NRWA Direct Costs              $215,029       $112,941       $424,792
            State Association Costs       $5,568,427     $1,290,427   $11,515,823
            NRWA Indirect Costs            $331,482        $84,202       $607,530
            Total Grant Amount            $6,115,938     $1,487,570   $12,548,145

            Percentage of State
            Association Costs to             91.05%         86.75%         91.77%
            the Total Grant Amount



NRWA also receives funding from the USDA-Rural Utilities Service. For the fiscal year ending
February 28, 2005, NRWA received over $23 million from the USDA-Rural Utilities Service.
NRWA receives funding from the USDA-Rural Utilities Service for:

   •	 Waste Water Technician: Technical assistance and training in the 48 contiguous States
      and a full-time water technician in Puerto Rico for wastewater systems serving
      populations less than 10,000.

   •	 Circuit Rider: Technical assistance to rural development eligible systems in the areas of
      operation and maintenance, treatment compliance, construction, financial management,
      general management, and board training.

   •	 Source Water Protection: Assistance in implementing source water protection plans
      within selected States.




                                              11 

                                                                                  Appendix B

                 Details on Scope and Methodology

As part of the assignment, we obtained an understanding of EPA’s process for awarding and
managing earmark grants awarded to NRWA. The understanding was obtained through an
analysis of the laws, regulations, and guidance pertaining to grants awarded to the NRWA and an
evaluation of internal controls over the grants. Internal controls include the processes for
planning, organizing, directing, and controlling program operations. Internal controls also
include the systems for measuring, reporting, and monitoring program performance. Our
understanding of the internal controls was gained through the performance of the procedures
outlined below.

The assignment scope was EPA grants and amendments awarded after January 1, 2005, with site
visits to EPA Headquarters in Washington DC, and NRWA’s office in Duncan, Oklahoma, and
included the following steps:

   • 	 Review EPA OIG reports to obtain background on whether the Office of Water has
       developed program measures for small water systems.
   • 	 Review EPA grant and project files for grants awarded to NRWA after January 1, 2005,
       and determine what environmental outcomes are listed in the grant award.
   • 	 Interview EPA grant and program personnel to determine what the environmental 

       outcomes or measures the grants to NRWA were intended to meet. 

   • 	 Verify the process by which NRWA allocates funds to State Rural Water Associations.
   • 	 Interview EPA program officials, State primacy agencies, and State Rural Water 

       Associations about how assistance is provided to rural water utilities. 

   •	 Interview NRWA officials and review NRWA documents.
   • 	 Interview water associations, such as the Association of Safe Drinking Water
       Administrators, to determine whether any studies of the problems facing small and rural
       water systems have been conducted and whether recommendations have been made as to
       how Federal, State, or local governments can alleviate the problems.

The assignment did not include a review of the USDA grants or verification of any financial
data.




                                              12 

